DOE/IG-0528




               AUDIT             STOCKPILE SURVEILLANCE
              REPORT                    TESTING




                                      OCTOBER 2001




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                                October 5, 2001


MEMORANDUM FOR THE SECRETARY

FROM:                      Gregory H. Friedman (Signed)
                           Inspector General

SIJBJECT:                  INFORMATION: Audit Report on “Stockpile Surveillance Testing”


BACKGROUND

In 1993, the President and Congress reaffirmed the moratorium on underground nuclear testing and directed
that a science-based Stockpile Stewardship Program be developed to maintain the nation’s stockpile of
nuclear weapons. The Department of Energy’s (Department) plan for the Stockpile Stewardship Program
describes it as one of the most complex, scientific-technical programs ever undertaken. The program
consists of surveillance, experimentation, computation, and production. Its focus is to maintain “high
confidence” in the safety and reliability of the stockpile without nuclear testing.

The Department is required, based on activities conducted under the Stockpile Stewardship Program, to
annually certify to the President that the nuclear weapons stockpile is, in fact, safe and reliable and that
underground nuclear testing does not need to be resumed. Ultimately, the program’s success is dependent
upon developing an unprecedented set of scientific tools to better understand nuclear weapons, enhancing
stockpile surveillance capabilities, and, in the process, extending the life of the weapons that comprise the
stockpile. Responsibility for the Stockpile Stewardship Program rests with the National Nuclear Security
Administration.

Surveillance testing, a key component of the Stockpile Stewardship Program, has been characterized as the
first line of defense for maintaining high confidence in the stockpile and the linchpin between stewardship
activities and the annual certification process. Each year, the Department randomly selects just under 100
weapons on which to conduct various surveillance tests. These include:

   •   Flight tests involving the actual dropping or launching of a weapon after removal of its nuclear
       components;

   •   Laboratory tests of non-nuclear weapon systems to detect defects due to handling, aging,
       manufacturing, or design; and,

   •   Component tests involving destructive analysis to identify defects or failures in individual nuclear
       and non-nuclear parts.

In February 2001, a Congressionally-appointed panel, established to review the reliability, safety, and
security of the stockpile, reported that the only hope for sustaining confidence in the stockpile is to assure,
through surveillance, that every effort is made to find any problems that may exist. In this vein, the
objective of our audit was to determine whether the stockpile surveillance testing program was meeting
scheduled milestones for testing.
                                                       -2-


RESULTS OF AUDIT

At least since 1996, the Department had not met many of its internally-generated milestones for flight,
laboratory, and component tests. This has resulted in a significant testing backlog that, despite some efforts
to expedite the testing regime, is projected to continue for several years. Flight and laboratory tests
scheduled for five different weapon systems were significantly backlogged. In addition, there was a large
number of untested components. Testing backlogs occurred primarily because of inadequate planning
related to required safety studies; transfer of testing responsibilities between facilities; and, difficulties in
coordinating tests with the Department of Defense. When tests are delayed or are not completed, the
Department lacks critical information on the reliability of the specific weapons involved. Additionally,
anomalies or defects within the weapon systems can go undetected since the likelihood of detecting
anomalies decreases when fewer tests are conducted. Without needed test data, the Department’s ability to
assign valid reliability levels to some weapon systems is at risk.

In September 2000, the Office of Inspector General issued a related audit report on the Management of the
Nuclear Weapons Production Infrastructure, (DOE/IG-0484, September 22, 2000). The audit disclosed
that a deteriorating infrastructure had contributed to delays in weapons modification, remanufacture and
dismantlement, and surveillance testing of weapon components. In our judgment, the state of the weapons
production infrastructure placed current and future goals of the Stockpile Stewardship Program at risk. We
currently have underway a complementary review of the Significant Finding Investigation Process, which is
another key element of the Stockpile Stewardship Program.

Taken together, our recent audit work leads us to conclude that immediate and aggressive action should be
taken to ensure the continued viability and credibility of the Stockpile Stewardship Program. Accordingly,
we recommended that the Deputy Administrator for Defense Programs develop a management plan to
address the backlog of flight, laboratory, and component tests.

MANAGEMENT REACTION

Management generally concurred with the report conclusions and recommendations. Actions, including
plans for eliminating backlogs, are being initiated. Management advised that most of the backlogs are
scheduled to be eliminated by the first part of
Fiscal Year 2003.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
STOCKPILE SURVEILLANCE TESTING


TABLE OF
CONTENTS


                Overview

                Introduction and Objective .................................................................... 1

                Conclusions and Observations .............................................................. 2


                Stockpile Surveillance Testing

                Details of Finding .................................................................................. 3

                Recommendations and Comments ........................................................ 9


                Appendices

                1. Scope and Methodology ................................................................ 11

                2. Related Reports ............................................................................. 12

                3. United States Active Weapons Stockpile ..................................... 14
Overview
INTRODUCTION AND   The Department of Energy (Department) is responsible for providing
OBJECTIVE          the nation with nuclear weapons and ensuring these weapons remain
                   safe, reliable, and available for the defense of the United States, should
                   the need arise. Since the 1992 moratorium on underground nuclear
                   testing, certification of the reliability and safety of the weapons
                   stockpile has been based primarily on the annual surveillance and
                   assurance tests conducted as a part of the Stockpile Surveillance
                   Program. Under this program, the Department randomly selects,
                   disassembles, inspects, and tests the nine active stockpile weapon
                   systems for defects and problems. Test results serve, in part, as a basis
                   for certifying to the President the safety and reliability of the nation's
                   aging nuclear stockpile and that underground nuclear testing does not
                   need to be resumed. This certification process includes a formal
                   concurrence by the directors of the three weapons laboratories, the
                   Commander-in-Chief of the United States Strategic Command, and the
                   Nuclear Weapons Council.

                   Overall responsibility for the direction of the Stockpile Surveillance
                   Program is vested in the National Nuclear Security Administration
                   (NNSA). Stockpile surveillance tests are conducted primarily at the
                   three weapons laboratories and four production facilities. These
                   include the Lawrence Livermore, Los Alamos, and Sandia National
                   Laboratories; Kansas City, Pantex and Y-12 Plants; and, the Savannah
                   River Site.

                   Completion of required weapons testing has been a continuing problem
                   for several years. A July 1996 General Accounting Office (GAO)
                   review disclosed a backlog in surveillance testing.1 Shortly thereafter,
                   the Department committed to returning flight, laboratory, and
                   component testing back to schedule to increase confidence in the
                   reliability levels assigned to some nuclear weapons. Additionally,
                   several internal studies were conducted to define approaches that would
                   be most appropriate to assure the continued safety and reliability of the
                   nation's nuclear stockpile. These included the Under Secretary's
                   30-Day Review (1999) and NNSA's 150-Day Report (2001) of the
                   Stockpile Surveillance Program to define key issues and frame
                   recommended actions. Officials believe implementation of
                   recommended actions will improve the program (See Appendix 2 for a
                   list of related reports). Further, about $4 million of additional funds
                   were requested and approved as a supplement to the Department's
                   Fiscal Year (FY) 2001 budget. These funds have been targeted to help
                   eliminate the testing backlog.
                   1
                    Nuclear Weapons: Improvements Needed to DOE 's Weapons Stockpile
                   Surveillance Program, (GAO/RCED-96-216, July 1996).
Page 1                                                           Introduction and Objective
                  The objective of our audit was to determine whether the stockpile
                  surveillance testing program was meeting scheduled milestones for
                  testing.


CONCLUSIONS AND   The Department has not been meeting its schedule for some flight,
OBSERVATIONS      laboratory, and component tests; and, backlogs are projected to
                  continue for several years. Without a robust and complete surveillance
                  testing program, the Department's ability to assess the reliability of
                  some nuclear weapons is at risk. Five of nine weapon systems in the
                  stockpile had significant flight or laboratory test backlogs.
                  Additionally, there was a large number of untested components.
                  Testing backlogs occurred primarily because of inadequate planning
                  related to required safety studies; transfer of testing responsibilities
                  between facilities; and, difficulties in coordinating tests with the
                  Department of Defense (DoD).

                  To enhance the Stockpile Surveillance Program, we recommended that
                  the Deputy Administrator for Defense Programs develop a management
                  plan to address the backlog of flight, laboratory, and component tests;
                  expedite the renewal of safety studies; and, establish a firm flight-test
                  plan with DoD officials.

                  We discussed this report with the Assistant Deputy Administrator for
                  Military Application and Stockpile Operations. Generally, he agreed
                  with our recommendations and indicated that during FY 2001 the
                  Department had begun to address some of the reasons for surveillance
                  testing delays, including the need for updated safety studies at Pantex.
                  A summary of management comments is set forth on pages 9-10.

                  Due to national security implications, the matters discussed in this
                  report should be considered by management when preparing its yearend
                  assurance memorandum on internal controls.




                                                        _____(Signed)_________
                                                        Office of Inspector General




Page 2                                                   Conclusions and Observations
STOCKPILE SURVEILLANCE TESTING

Backlogs in Surveillance   The active stockpile consists of nine nuclear weapon systems launched,
Testing                    depending on the type, from aircraft, submarines, or the ground.2
                           Surveillance tests for these weapons include:

                           •     flight testing, which is the actual dropping or launching of a weapon
                                 from which the nuclear components have been removed;

                           •     laboratory testing, which involves testing non-nuclear systems
                                 within a weapon, such as radar systems and fuzes, to detect defects
                                 due to handling, aging, manufacturing, or design; and,

                           •     component testing, which is destructive analysis to identify defects
                                 in individual non-nuclear and nuclear component parts.

                           For all three types of tests, the Department faced backlogs and delays.
                           Most of the nine systems were affected by these problems. Any missed
                           or delayed test is a matter of some concern, and each has the potential
                           to affect overall levels of confidence in the weapon system. Sandia
                           National Laboratories defined a testing backlog of 25 percent as a
                           "significant concern." The Department considered any backlog to be a
                           concern. Unless priority attention is given to substantially reduce these
                           backlogs, we believe that additional flight, laboratory, and component
                           testing milestones are at risk.

                                                               Flight Testing

                           An analysis of flight tests planned and conducted over the last four
                           years revealed that flight testing was significantly behind schedule. The
                           following table sets forth the backlogs experienced in the last four years
                           by weapon system.

                                                    Table 1—Backlog of Flight Testing
                                              (Four-year period ending September 30, 2000)
                                Weapon System       Number Planned          Actual           Percent Backlog
                                    W62                   8                    5                -38%
                                   W80-1                  16                  11                -31%
                                    W88                   12                   9                -25%
                                    W87                   8                    7                -13%
                                    W76                   13                  12                 -8%



                           2
                               Appendix 3 includes pictures of all weapon systems.

Page 3                                                                                  Details of Finding
         As indicated in the table, three weapon systems are already at the
         Sandia National Laboratories' defined level of "significant concern."
         Two others could reach that level if actions are not taken to return
         testing back to schedule. The best information available to us suggests
         that the backlogs may be several years in duration due to expired safety
         studies. The issue related to safety studies is discussed on page 6 of this
         report.

         Department officials advised that ten flight tests, which have been
         reported as backlogged, were conducted but yielded no useful
         information. Such tests are referred to as "no tests" and are not
         considered a backlog until a determination has been made to reschedule
         these tests. Some tests will not be rescheduled because of existing data
         available for similar weapons and the high costs of retesting. Further,
         Department officials asserted that most flight test deliverables to DoD
         had been met even though no useful information was obtained from
         these tests.

         The Office of Inspector General recognizes that modifications to
         schedules are sometimes necessary; however, "no tests" represent tests
         that were planned and not successfully completed. In our view, not
         identifying such tests as backlogged and reducing the number of tests
         planned, calls into question the adequacy of the sampling methodology
         used to determine the safety and reliability of the nuclear weapons
         stockpile.

                                     Laboratory Testing

         Over the past four years, at least five of the nine weapon systems have
         experienced laboratory testing backlogs as illustrated in the following
         table. Testing backlogs for two weapon systems exceeded the Sandia
         National Laboratories' threshold of "significant concern."

                             Table 2—Backlog of Laboratory Testing
                          (Four-year period ending September 30, 2000)
             Weapon System     Number Planned         Actual             Percent Backlog
               B61-7,11              30                 22                  -27%
                 W76                 31                 23                  -26%
                 W62                 36                 30                  -17%
                B83-1                30                 25                  -17%
               W80-0, 1              20                 17                  -15%



Page 4                                                             Details of Finding
                       If current trends continue, three others could reach the level of
                       "significant concern" unless actions are taken to restore testing to its
                       schedule. Planned testing for the remaining four systems was
                       generally on schedule. In regard to this matter, officials advised that
                       plans were in process to eliminate these backlogs starting in FY 2002.

                                                     Component Testing

                       The Department tests many weapon components; however, pits,
                       secondaries, detonators, gas transfer systems, and valves are
                       considered key or critical components. At the end of FY 2000, there
                       was a backlog in testing three of these key components. The table
                       below shows the component, the number of tests normally conducted
                       for each component, and the testing backlog.

                                              Table 3—Backlog of Component Testing
                                         (Four-year period ending September 30, 2000)
                        Component Type              Number Planned Annually     Number of Backlog
                        Gas Transfer Valves                   22                        61
                        Gas Transfer Systems                  32                        26
                        Pits                                   9                        4


                       Backlogs for each of these components were discussed with
                       Department officials. Management stated that the maximum number
                       of valve tests performed by the laboratory in a year had been 22.
                       Using this as a benchmark, we concluded that the untested valves
                       represented a backlog of about three years. In response to the gas
                       transfer systems backlog, Department officials advised that it planned
                       to eliminate the backlog by FY 2005. With regard to pits, the
                       Department planned to conduct 17 tests in FY 2000 even though only
                       9 such tests are normally scheduled each year. However, we found
                       that only 13 tests were actually completed, resulting in a backlog.
                       Officials advised that these four pits have been scheduled for testing in
                       FY 2001.


Surveillance Testing   The Department is required to maintain the nation's active weapons
Requirements           stockpile to ensure its safety and reliability and meet the mission
                       requirements developed with DoD. Specific requirements




Page 5                                                                           Details of Finding
                        governing the process are contained in the Stockpile Stewardship Plan
                        and a number of related classified documents.

                        The Stockpile Stewardship Plan requires non-nuclear testing of the
                        stockpile to ensure the safety and reliability of all weapon systems.
                        Departmental policy requires that a sampling methodology be used to
                        carry out this requirement. On average, eleven units of each of the
                        nine weapon systems are randomly selected from the stockpile each
                        year for testing and evaluation for a total sample size of about
                        99 weapons.

                        Criteria have been developed by the Sandia National Laboratories to
                        measure progress in meeting planned flight and laboratory testing
                        schedules. This criteria asserts the need for 100 percent testing of all
                        selected weapon systems, but recognizes as an absolute minimum
                        performance over a four-year period that at least 75 percent of
                        planned tests be completed. When actual performance falls below
                        this level, there is a "significant concern" that anomalies or defects in
                        the stockpile might have been missed. Consequently, the confidence
                        in the reliability, safety, and performance of the untested weapon
                        systems is reduced. The Department had no such criteria and
                        considered any backlog to be a concern.


Need for Planning and   The accumulation of backlogs occurred because of insufficient
Coordination            planning in the conduct of required safety studies and the transfer of
                        responsibility for component testing between facilities. In addition,
                        the Department had difficulties in coordinating flight tests with DoD.

                                                     Safety Studies

                        Officials did not adequately plan for the expiration of safety studies,
                        which contributed to the testing backlog. Before surveillance tests
                        can be conducted, weapons must first be disassembled, inspected,
                        reassembled, and, in the case of flight tests, have the nuclear package
                        replaced with telemetry. These activities are performed at the Pantex
                        Plant, where the primary mission is nuclear weapons stockpile
                        stewardship. Before Pantex can proceed, however, a valid safety
                        study is required for each weapon system, certifying that conducting
                        the operation is safe to the worker, facility, and environment. These
                        studies are usually valid for five years. However, some portions of
                        the studies must be reviewed annually and updated, if necessary.



Page 6                                                                       Details of Finding
         We found that twelve weapons could not be disassembled, inspected,
         and tested in FY 2000 because the related safety studies had been
         allowed to expire. At least half of these disassemblies and inspections
         pertained to one weapon system. We further noted that safety studies
         for three other weapon systems will expire in FY 2002. Surveillance
         testing activities could be delayed for these weapon systems unless
         actions are taken to address the safety study issue.

         In this regard, an August 2000 Departmental report noted that the
         contractor responsible at that time for operations at Pantex "lacked fully
         developed authorization basis documents such as safety analysis reports
         (SARs) and technical safety requirement documents. Progress in
         updating SARs has been limited by ineffective monitoring by [Defense
         Programs] and [Albuquerque Operations Office]...; inconsistent reviews
         by [Amarillo Area Office], [Albuquerque Operations Office], and
         [Defense Programs] staff, and difficulties experienced by [the
         contractor] in resolving technical issues." We noted that the
         Department changed contractors at Pantex in February 2001.

                            Transfer of Testing Responsibility

         The Los Alamos National Laboratory (Los Alamos) and the Savannah
         River Site could not perform some component surveillance testing
         because consideration had not been given to the availability of capacity
         and funding during the transfer of testing responsibility to these
         facilities. In March 1995, the Department transferred the mission of gas
         transfer valves surveillance testing from the Mound Plant (Mound) in
         Ohio to Los Alamos as part of the Non-nuclear Reconfiguration
         Program. However, it did not transfer any incremental funding to Los
         Alamos to perform the testing. In addition, Los Alamos did not have
         the capacity to perform testing at that time. Los Alamos officials
         advised that because of funding issues, it took nearly four years after
         the mission was officially transferred to the site to start valve testing.
         We recognize that the transfer of a function of this magnitude carries
         with it inherent operational and technical challenges. However, we
         concluded that the delay associated with this transfer — nearly four
         years in duration — was unacceptable given the national importance of
         the testing program.




Page 7                                                         Details of Finding
                     Similarly, gas transfer system testing was transferred to the Savannah
                     River Site with the closure of Mound. Because Savannah River did not
                     have adequate capacity to perform such tests, a backlog emerged.
                     Initially, Department officials expected gas transfer testing to be back
                     on schedule as of FY 2000, however, additional delays have occurred
                     due to new testing requirements. Officials advised that actions have
                     been taken to reduce backlogs, including increases in staff and facility
                     efficiencies.

                                                DoD Coordination

                     Flight tests are conducted in coordination with DoD and, therefore, are
                     not entirely within the Department's control. Over the last four years,
                     some flight tests scheduled for three weapon systems yielded no useful
                     information. These tests were considered "no tests." The flight test
                     program is intended to verify, among other things, weapon system
                     capability to function in a normal stockpile-to-target environment, and
                     to demonstrate continuing capability between the Department and DoD
                     subsystems. The Department had not worked with DoD to determine
                     whether additional flight tests were required to accommodate these "no
                     tests." Because of classification concerns, additional information is not
                     provided.


Effects Of Testing   During the course of the audit, we spoke to both Federal and contractor
Backlogs             officials at the national weapons laboratories involved in the annual
                     reporting and certification of the stockpile. We were continually
                     assured that, testing backlogs notwithstanding, the Department had met
                     current military stockpile requirements. We noted, for example, that
                     since the inception of the program, the Departments of Energy and
                     Defense have certified the reliability of the stockpile. However, in our
                     judgment, the failure to complete the regime of testing mandated by the
                     Department's own stockpile stewardship criteria raises questions about
                     its ability to assign reliability levels to some weapon systems. Clearly,
                     when tests are delayed or not completed, the Department lacks essential
                     information on the operating characteristics and reliability of the
                     weapon. Further, anomalies or defects within the weapon systems
                     could be missed.




Page 8                                                                     Details of Finding
                  As the stockpile continues to age, a rigorous and viable surveillance
                  program becomes increasingly important. Currently, many warheads
                  are over 30 years old and the average age is 17 years. As stated by a
                  Congressionally-appointed review panel,3 "Aging and unavoidable
                  changes are already introducing uncertainties regarding component and
                  system performance. As time passes, uncertainties inevitably will grow
                  unless adequate new knowledge is gained through the Stockpile
                  Stewardship Program."

                  The Department has taken the position that a science-based stockpile
                  reliability program can successfully serve as an alternative to
                  underground nuclear testing. To support its position, it devised an
                  extensive program of reliability tests. The testing backlogs that were
                  disclosed during this audit raise serious questions about whether the
                  objective of the Department's effort can be satisfied.


RECOMMENDATIONS   We recommend that the Deputy Administrator for Defense Programs
                  increase oversight and give attention to reducing backlogs of
                  surveillance testing. At a minimum, the Deputy Administrator should:

                       •    Develop and implement a management plan, with goals and
                            milestones, to address the backlog of flight, laboratory, and
                            component tests;

                       •    Expedite the renewal of safety studies to assure testing will be
                            completed as scheduled; and,

                       •    Coordinate with military officials to determine reasons for "no
                            tests" and whether additional tests are required.


MANAGEMENT        In general, management concurred with the report conclusions and
COMMENTS          recommendations. The Department advised that several actions have
                  been initiated to address testing backlogs. Further, plans for
                  eliminating the backlogs are being prepared. According to these plans,
                  most of the laboratory and component backlogs are scheduled to be
                  eliminated by the first part of FY 2003.




                  3
                   FY 2000 Report to Congress of the Panel to Assess the Reliability, Safety, and
                  Security of the United States Nuclear Stockpile, February 1, 2001.
Page 9
                                                                             Recommendations/
                                                                                   Comments
                   In regard to flight testing, management asserted that "no tests" do not
                   constitute a backlog. When a "no test" occurs, Department managers
                   consult with technical personnel at the appropriate laboratory, consider
                   accumulated data on the weapon in question, and consider the future
                   test schedules. Based on these factors, the Department makes a
                   judgment as to whether the "no tests" should be made up. The vast
                   majority of the current "no tests" will not be made up.


AUDITOR COMMENTS   Management's planned corrective actions are responsive to the audit
                   report recommendations. However, we have continued to classify "no
                   tests" as backlogs because they represent, in our judgment, a departure
                   from the Department's sampling methodology. As indicated in the audit
                   report, not identifying these tests as backlogged and reducing the
                   number of tests planned calls into question the adequacy of the
                   approach used to determine the safety and reliability of the nuclear
                   weapons stockpile.




Page 10                                                                Auditor Comments
Appendix 1

SCOPE         The audit was performed from September 2000 through August 2001 at
              the Department of Energy in Washington, DC and Germantown, MD;
              Albuquerque Operations Office and Sandia National Laboratories in
              Albuquerque, NM; Los Alamos National Laboratory in Los Alamos,
              NM; the Pantex Plant in Amarillo, TX; Savannah River Site in Aiken,
              SC; and the Y-12 Plant in Oak Ridge, TN.


METHODOLOGY   To accomplish the audit objective we:

              •   Reviewed policies and procedures established to accomplish
                  surveillance testing;

              •   Interviewed Departmental Headquarters officials concerning the
                  weapons testing responsibilities, operating requirements, and testing
                  backlogs;

              •   Interviewed Department and contractor officials at Albuquerque
                  Operations Office, Los Alamos, Sandia, Pantex, Savannah River
                  Site, and Y-12 Plant about testing responsibilities and backlogs;

              •   Reviewed testing data to assess whether backlogs existed in flight,
                  laboratory, and component testing;

              •   Interviewed contractor statisticians about how the testing backlogs
                  affect confidence and reliability;

              •   Reviewed applicable safety study requirements for both facilities
                  and weapons disassembly; and,

              •   Reviewed performance measures established in accordance with the
                  Government Performance and Results Act.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              rely extensively on computer-processed data.

              We held an exit conference with NNSA officials on
              September 25, 2001.


Page 11                                                     Scope and Methodology
Appendix 2


                                   RELATED AUDIT REPORTS


Office of Inspector General

•   Management of the Nuclear Weapons Production Infrastructure, (DOE/IG-0484, September 22, 2000).
    The audit found that the nuclear weapons production infrastructure has not been adequately maintained
    and current and future goals of the Stockpile Stewardship Plan are at risk.


General Accounting Office

•   Nuclear Weapons: Improved Management Needed to Implement Stockpile Stewardship Program
    Effectively, (GAO-01-48, December 2000). Although the Office of Defense Programs had taken steps
    to address principal challenges facing the Stockpile Stewardship Program, additional improvements
    were needed. Specifically, improvements were needed in order to: (1) remedy weaknesses in the
    program's planning process; (2) ensure that required budget information for effective cost management
    is available; (3) correct organizational and leadership deficiencies; and, (4) develop an effective
    management process for overseeing the life extension process for nuclear weapons.

•   Nuclear Weapons: Key Nuclear Weapons Component Issues Are Unresolved, (GAO/RCED-99-1,
    November 1998). The Department's plans for reestablishing the production of pits at Los Alamos
    National Laboratory have changed and are still evolving. The Department expects to have only a limited
    capacity on-line by FY2007.

•   Nuclear Weapons: Improvements Needed To DOE' s Weapons Stockpile Surveillance Program, (GAO/
    RCED-96-216, July 1996). The Department was behind schedule in conducting many of the stockpile
    surveillance tests including flight, laboratory, and component testing. As a result, the Department's
    confidence in the reliability levels assigned to some nuclear weapons had been diminished because
    some needed tests had not been carried out.


Other Reports

•   FY 2000 Report to Congress of the Panel to Assess the Reliability, Safety, and Security of the United
    States Nuclear Stockpile, (February 1, 2001). This Congressionally established panel found a disturbing
    gap between the nation's declaratory policy that maintenance of a safe and reliable nuclear stockpile is a
    supreme national interest and the actions taken to support this policy.




Page 12                                                                                    Related Reports
 •   FY 1999 Report of the Panel to Assess the Reliability, Safety, and Security of the United States
     Nuclear Stockpile, (November 8, 1999). The Congressionally appointed panel reported that
     effective execution of both the Stockpile Stewardship Program and the Annual Certification
     Process offered the best hope for sustaining confidence in the nuclear stockpile, and its deterrent
     capabilities, into the future. The panel recommended strengthening and broadening the Annual
     Certification Process to provide assurance that potential problems are being sought out and
     reported.

 •   Strategic Review of the Surveillance Program 150-Day Report, (January 1, 2001). This strategic
     review was initiated by NNSA to define the surveillance approach that would be most appropriate
     to assure the continued safety and reliability of the nation's nuclear stockpile. The team identified
     possible changes and improvements needed in the program to meet the needs of an aging stockpile
     with limitations on testing and an increasing need to preserve stockpile assets.

 •   Stockpile Stewardship Program 30-Day Review, (November 23, 1999). This comprehensive
     internal review to assess the continued confidence in the Stockpile Stewardship Program's
     structure, progress, and accomplishments found that the program works. The review identified the
     need for the Department and DoD to refine its process for prioritizing and scheduling stockpile
     refurbishments and other program requirements over the next several decades to take into
     consideration military, human, and budgetary needs.




Page 13
Appendix 3

                    Enduring U.S. Nuclear Weapons Stockpile
                          Weapon System Groups for the
                                 Active Stockpile




                                     W80


                                                                  B83




          W76/W88




                                                              B61—3/4/10
                                                               B61-7/11




                                     W87




          W62/W78



Page 14                                                          United States Active
                                                                  Weapons Stockpile
                                                                           IG Report No. DOE/IG-0528

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
       electronically through the Internet at the following alternative addresses:


             Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
